               The Use of Personal Digital Assistants Poses
                        Significant Security Risks

                                     July 2004

                       Reference Number: 2004-20-126




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                            July 16, 2004


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - The Use of Personal Digital Assistants
                              Poses Significant Security Risks (Audit # 200420021)


       This report presents the results of our review of controls over Personal Digital
       Assistants (PDA). The overall objective of this review was to determine whether the
       Internal Revenue Service (IRS) had implemented effective policies and procedures to
       adequately control the purchase, distribution, and use of PDAs.
       Since the early 1990s, PDAs have become increasingly popular due to their portability
       and computing capabilities. PDAs can perform many of the same functions as laptop
       computers, but they lack multiple security controls that are available for laptops and
       other computers. The portability of PDAs and their capacity to store sensitive data pose
       significant security risks for the IRS. To minimize the risks, the IRS requires that only
       PDAs certified as having adequate security capabilities be purchased and that the Chief
       Information Officer (CIO) approve all purchases.
       In summary, the IRS has purchased 427 PDAs for key personnel who may be directly
       involved in ensuring the continuity of operations during an emergency. These PDAs
       encrypt data, were certified as secure, and were approved by the CIO.
       However, the IRS has over 2,000 uncertified PDAs that can connect to the IRS network.
       Without the approval of the CIO, business units purchased the PDAs as a business tool
       for managers and employees to use while traveling. When synchronized to a network
       computer, the PDAs provide a backdoor into the network and bypass many of the
       existing security detection controls. Since these PDAs do not encrypt data, they could
       provide access to sensitive information, such as taxpayer data, if lost or stolen.
       We could not account for the PDAs that had been purchased by the business units
       because the business units did not maintain inventories and distribution records for
       these devices. As an alternative, we used IRS software that scanned the network to
                                           2

identify computers depicting PDA synchronization software. We tested 125 computers
in 4 locations and found that several employees and contractors had installed
unauthorized software to allow them to connect their personal PDAs to the IRS network.
Some PDAs contained unencrypted sensitive information, such as step-by-step
instructions for allowing access to large IRS databases containing taxpayer information
and systems used to process travel vouchers.
Approximately 85 percent of the employees in our sample did not make use of the
password feature available on their PDAs. In general, employees were not aware of the
sensitivity of the information they had placed on their PDAs. None of the IRS
employees in our sample had been provided any information regarding the risks of
using PDAs and the controls necessary to reduce the risks.
We recommended the CIO establish firm procedures and time periods to either replace
or upgrade PDAs with a solution certified by the Chief, Mission Assurance. Those
PDAs that remain in use should be inventoried and monitored for compliance with
security controls. We also recommended that the CIO continue to scan the network to
identify and remove unauthorized synchronization software, and periodically remind
employees and contractors of the risks associated with PDAs and the procedures they
should take to minimize risk.
Management’s Response: The CIO concurred with our recommendations and will
implement actions to ensure PDAs connected to the IRS network are in compliance with
appropriate security controls. The CIO will select a security package that has password
and encryption capabilities and establish a process for removing or replacing all
uncertified PDAs on the IRS network.
Also, the End User Equipment and Services (EUES) organization will conduct a
semiannual scan of IRS networks to identify workstations that have synchronization
software and issue a report identifying the users and their locations. A member of the
EUES staff will be assigned the responsibility of removing all unauthorized
synchronization software and uncertified PDAs from the IRS network. In addition,
employees and contractors will be informed about the risks associated with PDAs and
the prohibition against connecting personal equipment to the IRS Intranet and network.
Management’s complete response to the draft report is included as Appendix IV.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg,
Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.
                                The Use of Personal Digital Assistants Poses
                                         Significant Security Risks




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Has Purchased and Distributed
Thousands of Uncertified Personal Digital Assistants ............................... Page 2
         Recommendations 1 through 4: ...................................................... Page 6
         Recommendation 5: ........................................................................ Page 7

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 8
Appendix II – Major Contributors to This Report........................................ Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Management’s Response to the Draft Report .................... Page 12
             The Use of Personal Digital Assistants Poses
                      Significant Security Risks

                         Since the early 1990s, the Personal Digital Assistant (PDA)
Background
                         has evolved from being a device of very limited function,
                         compatibility, and capacity to being a highly functional
                         extension of a user’s desktop environment. Capacity,
                         connection options, and processing power have all increased
                         dramatically, while the applications and uses for PDAs are
                         becoming increasingly complex. At the same time,
                         decreasing prices and the increasing use of multifunction
                         devices are helping fuel the rapid proliferation of PDAs.
                         In spite of their popularity and potential productivity
                         benefits, PDAs pose risks to an organization’s security. The
                         very portability that makes a PDA so useful and attractive to
                         its users threatens security. It increases the PDA’s
                         vulnerability to theft or loss and makes it a highly portable
                         tool for circumventing security from within an organization.
                         A study showed approximately 250,000 handheld devices
                         were left behind or lost in United States airports in 2001.1
                         Most of those devices likely contained information useful to
                         hackers and others with no need to know proprietary
                         information.
                         PDAs generally lack the security self-protection capabilities
                         that are available for other computers, thereby causing
                         concern over the protection of sensitive material
                         downloaded to a PDA. When PDAs are purchased, user
                         authentication is generally not enabled; if user
                         authentication is enabled, it may be weak or easily
                         circumvented. Also, information on PDAs is usually not
                         automatically encrypted, making encryption the
                         responsibility of the user.
                         PDAs that offer wireless communication capabilities
                         generally increase the security risk to organizations.
                         Wireless transmissions may be intercepted and, if
                         inadequately encrypted, reveal their contents. The cellular
                         capabilities of some recent PDAs are a significant reason for
                         concern. PDAs could be connected to an organization’s
                         network or a desktop computer and at the same time be
                         connected to some nonsecure network, providing an
                         unsecured conduit into the organization by circumventing


                         1
                          Richard Price, “The PDA as a Threat Vector,” SANS Institute
                         (March 2003).
                                                                                        Page 1
                     The Use of Personal Digital Assistants Poses
                              Significant Security Risks

                                 the organization’s firewall. In addition, viruses and other
                                 malicious software that attack the PDA itself are beginning
                                 to emerge and can be expected to proliferate as the PDA
                                 platform continues to become more compatible with, and
                                 connected to, more common target systems.
                                 This review was performed at the Internal Revenue
                                 Service (IRS) National Headquarters in Washington D.C.,
                                 and the IRS offices in New Carrollton, Maryland;
                                 New York, New York; and Oakland, California, during the
                                 period January through February 2004. We reviewed PDAs
                                 in the Wage and Investment, Small Business/
                                 Self-Employed, Large and Mid-Size Business, and Tax
                                 Exempt and Government Entities Divisions and in the
                                 Agency-Wide Shared Services function.
                                 The audit was conducted in accordance with Government
                                 Auditing Standards. Detailed information on our audit
                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 In May 2003, the Chief Information Officer (CIO)
The Internal Revenue Service     expressed concern over the proliferation of PDAs within the
Has Purchased and Distributed    IRS, including both Federal Government and personally
Thousands of Uncertified         owned devices. The CIO believed actions were needed to
Personal Digital Assistants      establish control of the devices, manage the risks associated
                                 with them, and enforce existing security prohibitions. To
                                 minimize the risks, the IRS requires that only PDAs
                                 certified as having adequate security capabilities be
                                 purchased and that the CIO approve all purchases.
                                 However, these procedures have not been effective in
                                 adequately controlling the use of PDAs. We noted the
                                 following conditions:
                                    •   Purchases of PDAs were not properly authorized.
                                    •   PDAs were not properly controlled and inventoried.
                                    •   Employees did not follow security procedures when
                                        using PDAs.
                                 These conditions increase the risk that unauthorized persons
                                 could access the IRS network to disrupt operations or steal
                                 taxpayer information. Lost or stolen PDAs could also
                                 provide access to unencrypted sensitive information.
                                                                                       Page 2
The Use of Personal Digital Assistants Poses
         Significant Security Risks

            Purchases of PDAs were not properly authorized
            The IRS permits the use of a PDA for any employee with a
            business reason, provided the PDA is certified, accredited,
            and capable of encrypting transmissions. The IRS has
            purchased 427 PDAs for key personnel who may be directly
            involved in ensuring the continuity of operations during an
            emergency. These PDAs provide real-time email
            capabilities, encrypt data, were certified as secure, and were
            approved by the CIO as required.
            However, the CIO estimates the IRS has over
            2,000 uncertified PDAs that can connect to the IRS network.
            Business units purchased the uncertified PDAs without the
            prior approval of the CIO and bypassed existing procedures
            to purchase PDAs for managers and employees to use while
            traveling. We found no documentation that business units
            assessed the security risks before purchasing the PDAs.
            PDAs were not properly controlled and inventoried
            We could not account for the PDAs that had been purchased
            by the business units because the business units did not
            maintain inventories and distribution records for these
            devices. IRS inventory analysts stated that the cost of
            individual PDAs was not considered substantial enough to
            warrant creation of a PDA inventory.
            IRS procedures require that all sensitive equipment be
            inventoried, no matter the cost. Particularly because of their
            inherent risks, PDAs should have been inventoried
            regardless of costs.
            Employees did not follow security procedures when
            using PDAs
            We judgmentally selected 125 computers in 4 locations that
            had been identified as having PDA synchronization
            software.2 We confirmed 88 employees had PDAs that were


            2
              Without the availability of a valid inventory, the IRS used TIVOLI®
            software to scan the network and identified 2,565 computers with PDA
            synchronization software installed. While this technique was the only
            one available to locate PDAs, it was not accurate because the software
            can only scan computers connected to the network at the time of the
            scan.
                                                                           Page 3
The Use of Personal Digital Assistants Poses
         Significant Security Risks

            used to access the IRS network.3 Several of the PDAs we
            reviewed contained unencrypted sensitive but unclassified
            data. For example, four PDAs contained sensitive IRS data,
            such as step-by-step instructions for allowing access to large
            IRS databases containing taxpayer information and systems
            used to process travel vouchers. Another PDA stored a
            100-page crisis communications plan that contained IRS
            employee and building information. Other PDAs included
            email attachments referencing a Limited Official Use
            Memorandum of Understanding and a CIO database.
            In our sample, 75 (85 percent) of 88 employees did not
            make use of the password feature available on their PDAs.
            In addition, many employees were generally not aware of
            the sensitivity of the information, such as emails, that they
            had placed on their PDAs. We learned that IRS PDA users
            often set their PDA email function to automatically
            download their inbox to the unsecured PDA each time they
            connect to the network. This practice increased the risk that
            sensitive data could be inadvertently placed on the PDA.
            We determined that, in addition to those PDAs purchased by
            the business units, employees and contractors had connected
            their personal PDAs to the IRS network. Twelve IRS
            employees or contractors were using personal PDAs, and
            five employees or contractors had installed their own
            synchronization software onto IRS computers. Three
            employees or contractors had computers with unauthorized
            wireless and/or cell phone software installed.
            Also, we identified the following three potential integrity
            issues that will be referred to the Treasury Inspector General
            for Tax Administration Office of Investigations for further
            review:




            3
              Although we sampled 125 computers, we confirmed that only
            88 employees had PDAs. We believe the difference exists because
            employees could have returned their PDAs without removing the
            synchronization software, some employees may have never been issued
            a PDA, and synchronization software could have been removed after we
            selected our sample.
                                                                         Page 4
The Use of Personal Digital Assistants Poses
         Significant Security Risks

               •   A contractor had self-installed synchronization
                   software onto his or her desktop to enable the
                   contractor to use an unauthorized PDA with this
                   computer. The synchronization log indicated the
                   contractor had downloaded two pornographic
                   Internet web sites onto the PDA. In addition, the
                   contractor had installed unauthorized software on
                   this desktop that allowed him or her to communicate
                   outside the IRS network via a modem, a high-risk
                   practice specifically prohibited by the IRS. A
                   telephone line had been connected directly to this
                   desktop computer, indicating the contractor may
                   have used the modem.
               •   A contractor with synchronization software installed
                   on his or her desktop claimed he or she never used
                   the software. Upon review of the synchronization
                   log, we noted synchronization occurred on
                   September 3, 2003. The contractor stated he or she
                   was on vacation at that time, left the PDA in the
                   cradle, and did not know who used the desktop and
                   synchronization software.
               •   One laptop was loaned out to an employee without
                   removal of the synchronization software, providing
                   the employee the opportunity to connect a personal
                   PDA or other unauthorized device to the laptop.
            Business units did not provide employees with guidance on
            how to use the PDAs in a secure manner. None of the IRS
            employees in our sample were given any information
            regarding the risks of using PDAs and the controls
            necessary to reduce the risks.
            In December 2003, the CIO sent a draft memorandum to the
            business units reminding them of the security risks
            associated with PDAs and the need to protect sensitive data.
            The CIO encouraged business units to purchase the PDA
            currently certified for use if real-time email capabilities
            were required. For those employees not requiring that
            capability, the CIO indicated uncertified PDAs currently in
            use could continue to be used until a certified device could
            replace them. No specific procedures or time periods were
            provided for accomplishing these actions.

                                                                 Page 5
The Use of Personal Digital Assistants Poses
         Significant Security Risks

            Recommendations

            The CIO should:
            1. Establish firm measures and time periods to either
               replace or upgrade PDAs with a solution certified by the
               Chief, Mission Assurance.
            Management’s Response: The CIO will select a security
            package with password and encryption capabilities and
            establish a process (including measures and time periods)
            for removing or replacing existing PDAs on the network
            that are not certified.
            2. Inventory and monitor all PDAs in use for compliance
               with security controls.
            Management’s Response: The Director, End User
            Equipment and Services (EUES), has assigned a
            Contracting Officer’s Technical Representative to inventory
            all PDAs now in use. The EUES organization will scan the
            network to confirm that all PDAs connected to the network
            comply with security controls.
            3. Continue to scan the network to identify computers with
               synchronization software and follow up to determine
               whether personal PDAs are being used. Unauthorized
               synchronization software should be removed from
               networked computers.
            Management’s Response: The EUES organization will
            conduct a semiannual scan of the IRS networks, identify the
            workstations that have synchronization software, and issue a
            report that matches the assigned user and location of the
            workstation. The report will be distributed to the EUES
            organization Area Directors, who will designate a staff
            member to take appropriate action to remove all
            unauthorized synchronization software and wireless devices
            from the network.
            4. Periodically remind employees and contractors that
               connecting personal equipment, such as PDAs, to the
               IRS network is prohibited.
            Management’s Response: The Modernization and
            Information Technology Services organization will inform
            employees and contractors, when it provides initial service,
                                                                  Page 6
The Use of Personal Digital Assistants Poses
         Significant Security Risks

            that connecting personal equipment to the IRS Intranet and
            network is prohibited. In addition, the Director of
            Assurance Programs in the Office of Mission Assurance
            incorporated PDA training in the Annual Security
            Awareness Program for Calendar Year 2004, advising
            employees that connecting personal equipment such as
            PDAs to the IRS network is prohibited. This is ongoing
            training that was scheduled to begin in late June 2004. The
            Director of Assurance Programs will also coordinate with
            the Procurement function in the Agency-Wide Shared
            Services organization to identify the means to effectively
            communicate reminders to contractors that connecting
            personal equipment, such as PDAs, to the IRS network is
            prohibited.
            5. Provide training to those employees with authorized
               PDAs and advise them of the risks associated with
               PDAs. The training should address the need for using
               passwords and encrypting sensitive data.
            Management’s Response: The EUES organization will
            inform employees about the risks associated with PDAs
            when it provides them with initial service. Also, the
            Director of Assurance Programs has incorporated PDA
            training in the Annual Security Awareness Program for
            Calendar Year 2004. The training advises employees of the
            associated risks and the need for using passwords and
            encrypting sensitive data. Training was scheduled to begin
            in late June 2004.




                                                                 Page 7
                        The Use of Personal Digital Assistants Poses
                                Significant Security Risks

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue
Service (IRS) had implemented effective policies and procedures to adequately control the
purchase, distribution, and use of Personal Digital Assistants (PDA).
I.     To determine whether IRS management had established sufficient policies, procedures,
       and guidelines to ensure PDAs were used in a secure manner, we:
       A. Reviewed all current policies and procedures to determine whether there were
          specific criteria and standards for the use of PDAs and whether security controls
          pertaining to sensitive but unclassified information and emails were adequate.
       B. Evaluated the types of security risks PDA use poses to the IRS network.
       C. Using TIVOLI® software to scan the IRS network, identified a population of
          2,565 computers with PDA synchronization software installed and judgmentally
          selected 4 IRS offices (sites) based on which locations had among the highest
          numbers of computers with PDA software. We chose a judgmental sample for
          efficiency and because we did not plan to project results. The four sites selected
          were IRS Headquarters, Washington, D.C.; New Carrollton, Maryland;
          New York, New York; and Oakland, California.
       D. Interviewed End User Equipment and Services organization and Modernization and
          Information Technology Services (MITS) organization Territory Managers at the four
          sites to determine whether requirements for the use of PDAs were disseminated to
          PDA users and whether PDA users had been provided training on the reduction of
          risks relative to PDAs.
       E. Judgmentally selected 30 computers at 3 sites and 35 at a fourth site, for a total of
          125 computers, from the 2,565 computers identified by the TIVOLI® software and
          confirmed that 88 of those employees and contractors still had PDAs. We
          interviewed the 88 PDA users identified by the TIVOLI® scan at the 4 sites to
          determine how they used PDAs and what information they stored on their PDAs. We
          also evaluated their PDAs, synchronization software, and logs to determine what
          PDA functions were used and whether sensitive but unclassified information was
          stored on the PDAs.
II.    To determine whether controls were adequate to account for all PDAs received and
       distributed, we:
       A. Interviewed MITS organization management and inventory analysts to determine
          procedures and policies for tracking PDAs.

                                                                                          Page 8
                The Use of Personal Digital Assistants Poses
                        Significant Security Risks

B. Evaluated any available documentation for purchasing, tracking, or accounting for
   PDA use.




                                                                                Page 9
                       The Use of Personal Digital Assistants Poses
                               Significant Security Risks

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Gerald H. Horn, Audit Manager
Jody L. Kitazono, Senior Auditor
Abraham Millado, Senior Auditor
William Simmons, Senior Auditor




                                                                                         Page 10
                      The Use of Personal Digital Assistants Poses
                              Significant Security Risks

                                                                     Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Mission Assurance OS:MA
Acting Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO:M
       Chief, Mission Assurance OS:MA




                                                                          Page 11
 The Use of Personal Digital Assistants Poses
         Significant Security Risks

                                                Appendix IV


Management’s Response to the Draft Report




                                                     Page 12
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 13
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 14
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 15
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 16
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 17
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 18
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 19
The Use of Personal Digital Assistants Poses
        Significant Security Risks




                                               Page 20
